                                Office of Inspector General
                               Corporation for National and
                                        Community Service




        AGREED-UPON PROCEDURES FOR
             GRANTS AWARDED TO
    MICHIGAN COMMUNITY SERVICE COMMISSION

              OIG REPORT NUMBER 12-14




                        Prepared by:

                    Kearney & Company
                1701 Duke Street, Suite 500
                 Alexandria, Virginia 22314




This report was issued to Corporation management on August 27, 2012. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than February 27, 2013, and complete its corrective actions by August 27,
2013. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                        August 27, 2012



TO:            William Basl
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 12-14, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Michigan Community Service
               Commission (MCSC)


Attached is the final report for the above-noted engagement. This agreed-upon procedures
engagement was conducted by Kearney & Company P.C. in accordance with attestation
standards established by the American Institute of Certified Public Accountants and
Government Auditing Standards, issued by the Comptroller General of the United States.

Under the Corporation’s audit resolution policy, a final management decision on the findings and
recommendations in this report is due by February 27, 2013. Notice of final action is due by
August 27, 2013.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ron Huritz,
Audit Manager, at (202) 606-9355.

Attachment


cc:     Paula Kaiser Van Dam, Executive Director, MCSC
        Garry Gross, Director of Finance and Administration, MCSC
        Cindy Osga, Internal Control Officer, Michigan Department of Human Services
        David Rebich, Chief Financial Officer, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Karen Gandolfo, Audit Resolution Specialist, CNCS
        David Zavada, Partner, Kearney & Company P.C.
                                      Agreed-Upon Procedures for Corporation for National and Community Service
                                                 Grants Awarded to the Michigan Community Service Commission




                                 TABLE OF CONTENTS
                                                                                                     Page #

EXECUTIVE SUMMARY                                                                                         1

INDEPENDENT ACCOUNTANT’S REPORT ON APPLYING AGREED-UPON
PROCEDURES                                                                                                6

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs                                          7

Schedule A: Schedule of Claimed and Questioned Costs, Award No. 06ACHMI001                                8

Schedule B: Schedule of Claimed and Questioned Costs, Award No. 06AFHMI001                                11

Schedule C: Schedule of Claimed and Questioned Costs, Award No. 09ACHMI001                                18

Schedule D: Schedule of Claimed and Questioned Costs, Award No. 09RFHMI001                                28

Schedule E: Schedule of Claimed and Questioned Costs, Award No. 10ESHMI001                                30

Schedule F: Schedule of Claimed and Questioned Costs, Award No. 11PTHMI001                                32

Exhibit B: Compliance Findings                                                                            34

Appendix A: Commission Response to Draft Report

Appendix B: Corporation Response to Draft Report

Appendix C: Grantee and Subgrantee Procedures (redacted for brevity)
                                        Agreed-Upon Procedures for Corporation for National and Community Service
                                                   Grants Awarded to the Michigan Community Service Commission



EXECUTIVE SUMMARY

The Office of Inspector General (OIG) of the Corporation for National and Community Service
(the Corporation) contracted with Kearney & Company, P.C. (referred to as “Kearney,” “we,”
and “our” in this report) to perform agreed-upon procedures (AUP) to assist the OIG in grant
cost and compliance testing of Corporation-funded Federal assistance provided to the Michigan
Community Service Commission (the Commission).

Kearney questioned the Commission’s claimed Federal share costs of $243,536 and education
awards of $33,075 as a result of applying the AUPs. A questioned cost is an alleged violation of
a provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds. A questioned cost may also include a finding
that, at the time of testing, includes costs not supported by adequate documentation. Claimed
costs and questioned costs are presented in this document in Exhibit A, Consolidated Schedule of
Claimed and Questioned Costs, and the supporting schedules (Schedules A through F). The
following is a summary of questioned costs and grant compliance testing results:

      Finding 1 – Michigan State University (MSU) Untimely Approval of Timesheets
      Finding 2 – Accounts Payable Accrual Improperly Computed for Closed Contract
      Finding 3 – Insufficient Habitat for Humanity of Michigan (Habitat for Humanity) Fringe
                   Benefit Deductions and Documentation
      Finding 4 – Living Allowance Incorrectly Reported
      Finding 5 – Habitat for Humanity’s Accounting Detail Does Not Reconcile to the Federal
                   Financial Report (FFR)
      Finding 6 – American Red Cross of Greater Grand Rapids (American Red Cross) Over-
                   Reported In-Kind Contributions on the Periodic Expense Report (PER)
      Finding 7 – MSU Miscalculated Matching Costs
      Finding 8 – Commission Miscalculated Member Living Allowances
      Finding 9 – Commission Incurred Unallowable Costs
      Finding 10 – American Red Cross Accounting Detail Does Not Reconcile to the FFR
      Finding 11 – American Red Cross Incurred Unsupported and Unallowable Travel Costs
      Finding 12 – MSU Inappropriately Approved Timesheets
      Finding 13 – Commission Claimed Unsupported Costs
      Finding 14 – Commission Claimed Unallowable Costs.

Participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants, and as a
result, are not included in claimed costs. When the grant is awarded, the education awards
become obligations of the Corporation’s National Service Trust. Therefore, as part of our AUPs
and applying the same criteria used for the grantees’ claimed costs, we determined the effect of
our findings on AmeriCorps members’ entitlement to education and accrued interest awards.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B, Compliance Findings.



                                                 1
                                      Agreed-Upon Procedures for Corporation for National and Community Service
                                                 Grants Awarded to the Michigan Community Service Commission



      Finding 15 – Lack of Adequate Procedures for Conducting Criminal Background Checks
       and Searches of the National Sex Offender Public Registry
      Finding 16 – Lack of Sufficient End-of-Term Documentation
      Finding 17 – Living Allowances Based on Hours Served
      Finding 18 – Discrepancies in Member Roster Comparison.

AUP SCOPE

Kearney performed the AUPs detailed in the OIG’s Agreed-Upon Procedures for Corporation
Awards to Grantees (including Subgrantees) program, dated July 2011. Our procedures covered
testing of the AmeriCorps Competitive, Formula, Education Award, American Recovery and
Reinvestment Act (Recovery Act), Administrative, Professional Development and Training
(PDAT), and Disability grants listed in the table on the following page.




                                               2
                                                 Agreed-Upon Procedures for Corporation for National and Community Service
                                                            Grants Awarded to the Michigan Community Service Commission



                                        Grant Period                  AUP Period
                                                                                                 Total
   Grant                                                                                                           Total
                   Program                                                                      Claimed
  Number                            Start of      End of         Start of       End of                            Funding
                                     Grant        Grant          Review         Review           Costs


                  AmeriCorps
06AFHMI001                         9/1/2006      12/3/2012      9/30/2009      9/30/2011      $15,477,486       $20,174,381
                 State Formula

                  AmeriCorps
09ACHMI001          State          7/1/2009      9/30/2012      9/30/2009      9/30/2011       $3,629,019        $6,084,187
                  Competitive

09VSNMI005          VISTA          1/3/2010      1/14/2012       1/3/2010      9/30/2011        $15,000           $15,000

                 Commission
10CAHMI001                         1/1/2010     12/31/2012       1/1/2010      9/30/2011        $534,228         $2,862,564
                Administration

10CDHMI001         Disability      1/1/2010     12/31/2012       1/1/2010      9/30/2011        $32,837           $552,028

                  Commission
10ESHMI001         Education       8/23/2010     8/22/2013      8/23/2010      9/30/2011        $582,500          $634,500
                    Awards

                  Commission
10FXHMI002         Education       9/1/2010      8/31/2013       9/1/2010      9/30/2011        $671,947         $1,768,000
                    Awards

                  Volunteer
10VGHMI001        Generation       10/1/2010     9/30/2013      10/1/2010      9/30/2011        $255,785          $966,467
                    Fund

                  Commission
11ESHMI001         Education       8/22/2011     8/21/2013      8/22/2011      9/30/2011         Note 1           $586,500
                    Awards

                   Program
                 Development
11PTHMI001                         1/1/2011     12/31/2013       1/1/2011      9/30/2011        $44,998           $259,200
                 and Technical
                  Assistance

                  Commission
05ESHM1001         Education                                                Note 2
                    Awards

                  AmeriCorps
06ACHM1001                                                                  Note 2
                    State

                 AmeriCorps
09RFHM1001                                                                  Note 2
                State Recovery

 Note 1: This grant started in August 2011 and had no claimed expenditures during our period of review.
 Note 2: These grants were closed prior to the end of the period of review. Accordingly, these grants were only
 tested for member eligibility procedures.




                                                           3
                                         Agreed-Upon Procedures for Corporation for National and Community Service
                                                    Grants Awarded to the Michigan Community Service Commission



The OIG’s AUP program included the following:

      Obtaining an understanding of the Commission’s operations, programs, significant
       transaction cycles, and subgrantee monitoring process
      Reconciling costs claimed on the most recent FFR to the Commission’s accounting
       system
      Testing subgrantee member files to verify that records support eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards
      Testing the Commission’s and sampled subgrantees’ compliance with the grant
       agreement terms, AmeriCorps provisions, Office of Management and Budget (OMB)
       Circulars, and other applicable laws and regulations.

Kearney performed site visits from January through March 2012 at the Commission and the
following three subgrantees:

      MSU
      Habitat for Humanity
      American Red Cross.

BACKGROUND

Corporation Origin and History

The Corporation was established in 1993 to engage Americans of all ages and backgrounds with
opportunities to provide services to meet unmet needs in their communities and the nation. The
Corporation is directed to manage four main programs: Senior Corps, AmeriCorps, Social
Innovation Fund, and the Volunteer Generation Fund. The Corporation is the nation’s largest
grant maker for volunteering, with its participants serving with 70,000 non-profit organizations.
AmeriCorps alone engages 75,000 Americans, and in recent years has stepped up its role in
recruiting, training, and managing volunteers of all ages and backgrounds. Since 1994, more
than 630,000 Americans have given 718 million hours of service through AmeriCorps.

Commission’s Mission

Since its founding in 1991, the Commission has granted more than $100 million in public and
private funds to community organizations, enabling them to engage millions of Michigan
citizens in volunteer service. This support has leveraged more than $85 million in local
resources to further support these community volunteer initiatives. The Commission achieves its
mission by performing the following:

      Securing and granting funds
      Selecting and training high quality grantees
      Overseeing and monitoring grantee results
      Recognizing the success and effectiveness of volunteer programs and activities
      Developing and sharing resources
      Conducting research and evaluation


                                                  4
                                         Agreed-Upon Procedures for Corporation for National and Community Service
                                                    Grants Awarded to the Michigan Community Service Commission



      Creating networks among volunteer organizations
      Sharing the results of investments
      Serving as a bridge between the public and non-profit sectors.

According to the Commission’s website, in 2009, Michigan had over 2.3 million volunteers.
These volunteers’ 308 million service hours had an economic value equivalent to $6.2 billion.
The Commission, acting as the state’s lead agency on volunteerism, strives to increase these
efforts and impact by promoting service as a strategy to address Michigan’s toughest challenges.
The Commission receives $674,000 in state funds to address those challenges and anticipated
maintaining that level of funding for fiscal year (FY) 2012. Those state funds leverage more
than $10 million in Federal funds to be disbursed through various initiatives of the Commission.
For every one dollar the state provides to the Commission, $14.83 in Federal funds are
leveraged. Without the state’s investment, critical challenges would not be addressed through
AmeriCorps, service-learning, mentoring, and general volunteering initiatives.

In 2010 and 2011, the Commission funded 26 AmeriCorps programs and 1,211 members
through its Michigan AmeriCorps initiative. These members serve in non-profit organizations
and schools throughout the state. During 2012, members will provide foreclosure prevention and
financial counseling, help ex-offenders re-enter society, assist homeless individuals and families
in finding permanent housing, organize literacy and tutoring programs for underperforming
youth, mentor and support youth from disadvantaged circumstances, and support healthcare
services to the most needy, among other things. The members will accomplish these initiatives
with the help of more than 24,000 local volunteers they will recruit. As a result of their service,
Michigan AmeriCorps members will earn an estimated $3 million in education awards to pay for
college and vocational training programs or repay student loans.

The Commission falls under the State of Michigan’s Department of Human Services’ (DHS)
Strategic Services Branch. DHS is a major department in the State of Michigan’s financial
statements. The Commission does not produce its own financial statements; rather, the
Commission relies on DHS and the State of Michigan to properly account for its financial
records and financial reporting.

The Commission has approximately 38 subgrantees, 26 of which have received over $500,000 in
awards from the Commission.

EXIT CONFERENCE

The contents of this report were discussed with Commission and Corporation representatives at
an Exit Conference held on June 8, 2012. Kearney summarized the Commission’s comments in
the appropriate sections of this report, and included those comments in their entirety in Appendix
A to this report.




                                                  5
                                        Agreed-Upon Procedures for Corporation for National and Community Service
                                                   Grants Awarded to the Michigan Community Service Commission



     INDEPENDENT ACCOUNTANT’S REPORT ON APPLYING AGREED-UPON
                          PROCEDURES

To the Inspector General of the Corporation for National and Community Service


Kearney & Company, P.C. (referred to as “Kearney,” “we,” and “our” in this report) has
performed the procedures contained in the Office of Inspector General’s (OIG) Agreed-Upon
Procedures Related to Federal Assistance Recipient program, dated July 2011. These
procedures were agreed to by the OIG solely to assist in evaluating the Michigan Community
Service Commission’s (the Commission) compliance relating to federally assisted funds received
for the period of September 30, 2009 through September 30, 2011. The Commission and its
subgrantees are responsible for the accuracy and completeness of the reported information.

This agreed-upon procedures (AUP) engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants, as well as
Generally Accepted Government Auditing Standards, issued by the Comptroller General of the
United States. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures described
below either for the purpose for which this report has been requested or for any other purpose.

The procedures we agreed to perform consisted of obtaining an understanding of the
Commission, reconciling costs claimed, reviewing subgrantee member files, and testing the
Commission’s and sampled subgrantees’ compliance with the grant agreement terms,
AmeriCorps provisions, Office of Management and Budget (OMB) Circulars, and other
applicable laws and regulations. The enclosure contains the AUPs and our results.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on the Commission’s compliance relating to Federally assisted
funds received. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to
you.

This letter is intended solely for the information and use of the Corporation’s management, the
Corporation’s OIG, the Commission, the Government Accountability Office, OMB, and
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




Alexandria, Virginia
May 16, 2012




                                                 6
                                                                                       Agreed-Upon Procedures for Corporation for National and Community Service
                                                                                                  Grants Awarded to the Michigan Community Service Commission



Exhibit A

                                              Michigan Community Service Commission
                                       Corporation for National and Community Service Awards
                                        Consolidated Schedule of Claimed and Questioned Costs

                                                                                                              Questioned           Total
    Grant                                    Total          Costs          Questioned       Questioned
                       Program                                                                                Education          Questioned        Reference
   Number                                   Funding        Claimed          Federal          Match
                                                                                                               Awards              Costs
06AFHMI001         AmeriCorps State        $20,174,381   $15,477,486        $203,477             $0                 $0            $203,477         Schedule B

09ACHMI001         AmeriCorps State        $6,084,187     $3,629,019        $37,609              $0                 $0             $37,609         Schedule C

                Commission Education
 10ESHMI001                                 $634,500       $582,500          $1,347              $0                 $0             $1,347          Schedule E
                     Awards

                 Program Development
 11PTHMI001                                 $259,200       $44,998           $1,103              $0                 $0             $1,103          Schedule F
                and Technical Assistance

       Total Questioned Costs for the Federal Assistance Funds              $243,536             $0                 $0            $243,536
                    Received by the Commission

The table below represents grants that were closed prior to the end of the period of review. Accordingly, these grants were only tested
for member eligibility procedures.

          Grant Number                Program               Questioned Education Awards                 Compliance Issue              Reference
                               Commission Education
            05ESHMI001                                                     N/A                                  Yes                    Exhibit B
                                    Awards
            06ACHMI001            AmeriCorps State                     $23,625                                  Yes                   Schedule A
                                 AmeriCorps State
            09RFHMI001                                                 $9,450                                   Yes                   Schedule D
                                     Recovery
           Total Questioned Costs for the Federal                      $33,075
        Assistance Funds Received by the Commission



                                                                       7
KEARNEY&                                        Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                    Grants Awarded to the Michigan Community Service Commission



Schedule A

                           Michigan Community Service Commission
                     Corporation for National and Community Service Awards
                           Schedule of Claimed and Questioned Costs
                                     Award No. 06ACHMIOOl
              - - -                     - - -                -     ----                              -



                         ------                              -   - -             -
                                                                                        AmOllll'
                                                                                          -              .
               Claimed Federal Costs                                                      $4,983,869

               Questioned Federal Costs                                                         $0

               Questioned Match Costs                                                           $0

               Total Questioned Costs                                                           $0

               Questioned Education Awards                                                    $23,625
                       Findin 1

Finding 1: Michigan State University (MSU) Untimely Approval of Timesheets

Member time sheets are approved by a supervisor once they are entered into OnCorps Reports.
OnCorps Reports is a software support service that works exclusively with AmeriCorps State,
National Direct, Volunteers in Service to America (VISTA), and other national and community
service programs. The Michigan Community Service Commission (the Commission) uses
OnCorps Reports to maintain documentation regarding member services.

For six l of 100 member timesheets reviewed, Kearney & Company, P.C. (Kearney) identified
time sheets that were approved by supervisors several days before the members served the last
hour recorded in the pay period. Timesheets validate that the members worked the correct
amount of hours to earn an education award.

Due to unsupported documentation, Kearney questioned education awards and any related
forbearance interest arising from these time sheets in prorated amounts for the hours not approved
appropriately by a supervisor. Kearney questioned all hours worked subsequent to the time sheet
approval, as Kearney was unable to validate that all hours recorded were actually worked. As a
result, Kearney questioned the education awards in the table on the following page.




1 Kearney identified six member time sheets that were not properly approved; however, only five resulted in

questioned costs due to one member exiting early and not receiving an education award.


                                                         8
KEARNEY&                                           Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                       Grants Awarded to the Michigan Community Service Commission


           -          --        - -    --      -     -       -   -                 -   ---

                                                               Amollllt of                         Total         'I


                            r              (.ral1t(s)      ..                                 Lnsllpportcd
                  Program Name                ..          blllC<ltlOI1 ;\\\al'{l                         .       I
                                           Alkl'lrd             R    . I                         HOllrs lor
                                                                  rern C(                                        I
                  _ __                     _        _ _ ___ _       _ _                    --') rog ram ~,
               4-H Mentor Michigan       06ACHMIOOI                      $4,725                             55.5
               4-H Mentor Michigan       06ACHMIOOI                        4,725                             216
               4-H Mentor Michigan       06ACHMIOOI                        4,725                             159
               4-H Mentor Michigan       06ACHMIOOI                        4,725                             142
               4-H Mentor Michigan       06ACHMIOOI                        4,725                              73
                 Total Questioned Education Awards                     $23,625


Criteria

The Corporation for National and Community Service's (the Corporation) AmeriCorps
Provisions (2011), Section IV.C.6, "Completion of Terms of Service," states:

        "The grantee must ensure that each member has sufficient opportunity to complete the
       required number of hours of service to qualify for their education award. Members must
       be exited within 30 days ofthe end of their term of service. Should a program not be
       renewed, a member who was scheduled to continue in a term of service may either be
       placed in another program where feasible, or a member may receive a pro-rated education
       award if the member has completed at least 15% of the service hour requirement."

The Corporation's AmeriCorps Provisions (2011), Section IV.C.5, "Timesheets," states:

       "The grantee is required to ensure that time and attendance recordkeeping
       is conducted by the individual who supervises the AmeriCorps member. This time and
       attendance record is used to document member eligibility for in-service and post-service
       benefits. Time and attendance records must be signed and dated both by the member and
       by an individual with oversight responsibilities for the member."

Recommendations

Kearney recommends that the Corporation:

1a.    Resolve and recover $23,625 in questioned education awards;

1b.    Ensure that the Commission strengthens the monitoring of its sub grantees to determine
       whether member time sheets support the service hours reported and certified in Electronic
       System for Programs, Agreements, and National Service Participants (eSPAN) and My
       AmeriCorps Portal. The Corporation should also ensure that the Commission reconciles
       the hours stated in eSP AN with the hours recorded in OnCorps Reports to correct
       discrepancies timely; and

1c.    Remind all Commission and subgrantee supervisors that the purpose of their timesheet
       approval is to confirm, based on personal knowledge, that the member has actually




                                                            9
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



       completed the recorded hours, making it improper to approve a time sheet prior to
       completion of the service time that it reflects.

Commission's Response

Disagree. Members enter their service time into OnCorps. Timesheets are a printout of the
member service information entered into OnCorps. The member service time was approved by
site supervisors prior to the pay period end date to accommodate internal processes related to the
subgrantee' s payroll system so the payroll could be processed timely. The member service time
was reviewed for accuracy after the pay period ended. The subgrantee's process provides for
adjustments if hours differ from those entered into the system prior to the pay period end date.
The member service time entered into OnCorps supports the service hours reported.

Each sub grantee is required to reconcile the member service hours in OnCorps to eGrants as part
of the grant closeout process. The subgrantee must compare each member and highlight
discrepancies on both reports. The subgrantee must resolve discrepancies. The subgrantees
submit the OnCorps Report and eGrants reports to the Commission as part of the closeout
package.

Kearney's Response

We appreciate the Commission's response. While policy may dictate that each sub grantee may
be required to reconcile the member service hours as part of the grant closeout process, the
sub grantee was unable to provide evidence to validate that all hours recorded were actually
worked. Therefore, Kearney recommends that the Commission strengthen the monitoring of its
sub grantees, and that the Corporation resolve the questioned costs.




                                                  10
lEAR NEY&                                   Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                Grants Awarded to the Michigan Community Service Commission



Schedule B

                          Michigan Community Service Commission
                    Corporation for National and Community Service Awards
                          Schedule of Claimed and Questioned Costs
                                    Award No. 06AFHMIOOl
                -      -       --   - - -       -   -----~            -   ~        ------             "
                                                                                        AIlIOllllt
                           -    -   --       -----       -   -   -   --        --              -


             Claimed Federal Costs                                                  $15,477,486

             Questioned Federal Costs
                     Finding 2                                                         $4,724
                     Finding 3                                                        ($1,200)
                     Finding 4                                                          $203
                     Finding 5                                                        $199,750

             Questioned Match Costs                                                       $0

             Total Questioned Costs                                                   $203,477


Finding 2: Accounts Payable Accrual Improperly Computedfor Closed Contract

Kearney selected a representative sample of 87 transactions from the Commission accounting
detail, reconciled the sample with the supporting documentation, and tested for compliance with
the grant agreement terms, Office of Management and Budget (OMB) Circulars, and other
applicable laws and regulations. As a result of its testing, Kearney identified one issue, as
follows:

   •   For one of 87 samples tested, the Commission improperly reported an accounts payable
       accrual of $4,724 for a contract that was not closed on a timely basis.

Account payable accruals are automatically calculated in the Commission's accounting system at
year end based on the period of performance and the amount remaining on the contract. The
Commission had already paid the final invoice for this contract, thus the $4,724 should have
been de-obligated; however, the contract was not closed on a timely basis and was captured in
the automated accounts payable accrual process. As a result, costs for the September 30, 2011
Federal Financial Report (FFR) submission were overstated by $4,724.

Criteria

OMB Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, "General Principles for Determining Allowable Costs," states:

       "1. Factors affecting allowability of costs. To be allowable under Federal awards, costs
       must meet the following general criteria:

       a. Be necessary and reasonable for proper and efficient performance and administration
          of Federal awards


                                                    11
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



       b. Be allocable to Federal awards under the provisions ofthis Circular
       c. Be authorized or not prohibited under State or local laws or regulations
       d. Confonn to any limitations or exclusions set forth in these principles, Federal laws,
          tenns and conditions of the Federal award, or other governing regulations as to types
          or amounts of cost items
       e. Be consistent with policies, regulations, and procedures that apply unifonnly to both
          Federal awards and other activities of the governmental unit
       f. Be accorded consistent treatment. A cost may not be assigned to a Federal award as a
          direct cost if any other cost incurred for the same purpose in like circumstances has
          been allocated to the Federal award as an indirect cost
       g. Except as otherwise provided for in this Circular, be detennined in accordance with
          generally accepted accounting principles
       h. Not be included as a cost or used to meet cost sharing or matching requirements of
          any other Federal award in either the current or a prior period, except as specifically
          provided by Federal law or regulation
       1. Be the net of all applicable credits
       J. Be adequately documented."

Recommendation

2.     Kearney recommends that the Corporation resolve the questioned costs, totaling $4,724,
       and recover the disallowed costs.

Commission's Response

Agree. A final payment was made against the grant for the period ended December 31, 2010.
The system recognized there were funds available to bill against and did not recognize the
contract end date (January 7, 2011) for establishing a payable in the accounting system.
Therefore, the system created a payable. The Commission thought the grant had closed out
effective December 31,2010, with the final payment and did not work or track the award after
that date. The issue was discovered after year end closing deadlines for the fiscal year ended
September 30,2011, and could not be reversed. The erroneous accounts payable will be written
off in accordance with State requirements in August 2012.

Kearney's Response

We reviewed the Commission's response and have no additional comments.

Finding 3: Insufficient Habitat/or Humanity o/Michigan Fringe Benefit Deductions and
Documentation

Kearney tested fringe benefit deductions and related documentation for May 2011. When
recalculating Habitat for Humanity of Michigan's (Habitat for Humanity) fringe benefits,
Kearney noted the following:




                                                12
KEARNEY&                                   Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                               Grants Awarded to the Michigan Community Service Commission



      •   Habitat for Humanity pays for a portion of its employees' life insurance benefits provided
          through American Family Life Assurance Company (AFLAC), with the employee paying
          the remaining portion. When the AFLAC statement is received, Habitat for Humanity
          creates an entry in its general ledger for the full benefit amount (employee and employer
          portions). Habitat for Humanity subsequently creates a credit in the general ledger to
          reverse the employee paid portion. Kearney determined that the reversed amount, and
          the method of determining each employee's portion of the cost, is unsupported. As a
          result, Kearney questioned the unsupported costs of ($689) ($109 + $580) related to the
          fringe benefits. In addition, there is no monthly reconciliation that occurs between the
          AFLAC statement and the general ledger
      •   Kearney obtained the AFLAC bill for May 2011, and determined that the benefit amount
          paid by Habitat for Humanity is incorrect. Kearney recalculated the amount and found a
          difference of $1.80. Kearney questioned a total of $22 ($1.80 * 12) in under-reported
          costs for program year 2010-2011
      •   Kearney questioned the difference of$40.76 between the accounting records and wage
          schedule for May 2011, which amounts to a total cost of$489 ($40.76 * 12) in under-
          reported costs for program year 2010-2011.

Habitat for Humanity recorded the employee paid portion in journal entries for the wrong
amount. In addition, Habitat for Humanity did not perform monthly reconciliations between the
AFLAC bill and the general ledger adjusting entry. Therefore, the subgrantee under-reported
costs relating to fringe benefits on employees' year-end W-2 forms by $22 for program year
2010-2011, and under-reported costs by $1,200 ($689 + $489 + $22).

Criteria

Per OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, "General Principles for Determining Allowable Costs," Section C, "Basic
Guidelines," Sub-Section 1, "Factors Affecting Allowability of Costs":

          "To be allowable under Federal awards, costs must meet the following general criteria:

          ... j.) Be adequately documented."

Recommendations

3a.       Kearney recommends that the Corporation resolve the total questioned costs of$1,200
          related to Habitat for Humanity'S fringe benefits.

3b.       Kearney recommends that the Corporation ensure the Commission directs the subgrantee
          to implement a monthly reconciliation process so that the correct amount can be deducted
          from payroll each month.

Commission's Response

Agree. Habitat for Humanity implemented a reconciliation process in January 2012.


                                                    13
KEARNEY&                                         Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                     Grants Awarded to the Michigan Community Service Commission



 Kearney's Response

 We reviewed the Commission's response and have no additional comments.

 Finding 4: Living Allowance Incorrectly Reported

 Members' living allowances are to be paid in accordance with the Living Allowance Payment
 Schedule (LAPS). Kearney selected a random sample of 100 members from the member roster
 to validate that members received the proper living allowance during their terms of service.
 Kearney noted that one member's Form W-2 for 2011 did not agree to the total amount listed on
 the LAPS provided by the sub grantees, resulting in the member being paid more than the
 maximum amount.

 This error occurred because the Commission and its subgrantees do not perform reviews between
 payroll records and supporting documentation, such as LAPS, timesheets, and W-2s, prior to
 certifying documents. The programs and the amount of living allowances resulted in the
 following overpayment:
                                 --                     -                   -     --             -                -




I ~ Suhgrantee                                                                                       Questioned Lh ing       I
                             Progr<l III Na me              \"-2 Amount         LAPS Amount                                  I
                                                                                                        AII(m anee
                   -           --                      --                  --                                 -              I
   Saginaw Substance
    Abuse Prevention         Saginaw Substance        $6,245                       $6,042                  $203
      Partnership
                     Net Questioned Costs from Member Testing                                              $203

 Criteria

 Code of Federal Regulations (CFR), Title 45, Section 2522.240, "What financial benefits do
 AmeriCorps participants serving in approved AmeriCorps positions receive?" states:

        "(b) Living allowances-(1J Amount. Subject to the provisions of this part, any
        individual who participates on a full-time basis in an AmeriCorps program carried out
        using assistance provided pursuant to §2521.30 of this chapter, including an AmeriCorps
        program that receives education awards only pursuant to §2521.30(c) of this chapter, will
        receive a living allowance in an amount equal to or greater than the average annual
        subsistence allowance provided to VISTA volunteers under §105 of the Domestic
        Volunteer Service Act of 1973 (42 U.S.C. 4955). This requirement will not apply to any
        program that was in existence prior to September 21, 1993 (the date of the enactment of
        the National and Community Service Trust Act of 1993) ....

        (2) Maximum living allowance. With the exception of a professional corps described in
        §2522.11O(a)(3), the AmeriCorps living allowances may not exceed 200 percent of the
        average annual subsistence allowance provided to VISTA volunteers under section 105
        of the Domestic Volunteer Service Act of 1973 (42 U.S.C. 4955). A professional corps
        AmeriCorps program may provide a stipend in excess ofthe maximum, subject to the
        following conditions: (i) Corporation assistance may not be used to pay for any portion of
        the allowance ... "


                                                            14
IEARNEY&                                  Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                              Grants Awarded to the Michigan Community Service Commission




Recommendation

4.       Kearney recommends that the Corporation ensure that the grantee strengthens its program
         monitoring procedures to meet the requirements of 45 CFR § 2522.240, and that living
         allowances paid to members are in accordance with the LAPS amount.

Commission's Response

Disagree in part. The Commission does not believe it is practical to require the subgrantees to
reconcile the Living Allowance Payment Schedule to the W-2 forms prior to payroll certification
given they are issued only once per year.

The Commission will encourage the subgrantees to periodically evaluate the living allowance
paid with the Living Allowance Payment Schedule to ensure the amount paid to the member is
within the maximum.

Kearney's Response

We appreciate the Commission's response and support the Commission working with the
subgrantees to effectively address this issue.

Finding 5: Habitat/or Humanity's Accounting Detail Does Not Reconcile to the FFR

Habitat for Humanity does not perform a reconciliation of costs claimed on its FFR to its general
ledger. At Kearney's request, Habitat for Humanity performed the reconciliation and identified
variances. Habitat for Humanity did not process adjustments to correct the unreconciled errors,
and did not submit a revised FFR to the Corporation. As a result, we identified $199,750 in costs
on the FFR that were not recorded in the general ledger .

Kearney determined that costs were overstated due to the following:

     •   Adjusting entries during the financial reporting process that were not recorded in the
         general ledger
     •   Incorrect coding in the accounting system
     •   Advances reported as expenses, which caused them to be double-reported
     •   Over-reported costs.

Criteria

OMB Circular No. A-I22, Cost Principles for Non-Profit Organizations, Attachment A, "Basic
Considerations," states:

         "2. Factors affecting allowability of costs. To be allowable under an award, costs must
         meet the following general criteria:



                                                   15
KEARNEY&                                Agreed-Upon Procedures [or Corporation [or National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



       a. Be reasonable for the perfonnance of the award and be allocable thereto under these
          principles.
       b. Confonn to any limitations or exclusions set forth in these principles or in the award
           as to types or amount of cost items.
       c. Be consistent with policies and procedures that apply unifonnly to both federally-
          financed and other activities ofthe organization.
       d. Be accorded consistent treatment.
       e. Be detennined in accordance with generally accepted accounting principles (GAAP).
       g. Be adequately documented."

Recommendations

Kearney recommends that the Corporation:

5a.    Resolve the unsupported questioned costs, totaling $199,750, and recover the disallowed
       costs as applicable;

5b.    Ensure that the Commission instructs the sub grantee to reconcile its accounting records to
       the amounts reported, ensure that transactions and accounting records are accurate and
       supported by relevant and sufficient documentation, review controls over reporting to
       ensure submissions are in accordance with Government requirements, and ensure
       sufficient controls are designed and operating effectively over reporting processes; and

5c.    Ensure that the Commission increases the level and frequency of its fiscal monitoring
       efforts to ensure that controls over financial reporting are more effective.

Commission's Response

Disagree. Habitat for Humanity identified the difference of $199,750 as described below.

       $   48,641      2010-2011: Habitat for Humanity returned $10,256 of grant funds
                       which had been advanced and corrected allocations of $38,385 prior
                       to filing the final close out documents with the Corporation.

       $ 104,512       2009-2010: Habitat for Humanity returned $33,887 of grant funds
                       which had been advanced and had $70,625 of expenses that were not
                       allocated to the program in the organization's financial records.

       $   46,597      ARRA: Habitat for Humanity incurred $11,376 of workers
                       compensation insurance directly related to ARRA funded members.
                       The audit occurred subsequent to the grant period and thus was not
                       originally allocated. In addition, $35,221 of in-kind expenses that
                       were incurred at the Habitat for Humanity affiliate level were not
                       recorded on Habitat for Humanity'S financial records in accordance
                       with Generally Accepted Accounting Principles.



                                                16
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



The Commission will encourage the sub grantee to maintain reconciliation documentation with
its copy of the Federal Financial Report for audit purposes.

The Commission uses a risk-based approach to determining the subgrantees that will be subject
to an on-site fiscal monitoring review. The approach was approved by the Corporation. The risk
based approach allows the Commission to determine if a sub grantee will be subject to an on-site
review or an off-site/desk review so resources are directed to higher risk subgrantees, programs,
or types of transactions.

Kearney's Response

We appreciate the Commission's response.

2010-2011 Grant
   • The Corporation should verify that $10,256 was returned, as this documentation was not
       available in a timely manner
   • The Corporation should verify that supporting documentation exists for the $38,385,
      which was not provided in a timely manner, and recover costs that cannot be supported.

2009-2010 Grant
   • The Corporation should verify that $33,887 was returned, as this documentation was not
      available in a timely manner
   • The Corporation should verify that supporting documentation exists for the $70,625,
      which was not provided in a timely manner, and recover costs that cannot be supported.

Recovery Act
   • The Corporation should verify that supporting documentation exists for the $46,597,
      which was not provided in a timely manner, and recover costs that cannot be supported.




                                                17
IEARNEY&                                    Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                Grants Awarded to the Michigan Community Service Commission



Schedule C

                        Michigan Community Service Commission
                  Corporation for National and Community Service Awards
                        Schedule of Claimed and Questioned Costs
                                  Award No. 09ACHMIOOI
            - - - -            --       ----             -        ---                -   ----

           ----                  --     -     ---                                -
                                                                                         Amolllll
                                                                                          - - - - -

             Claimed Federal Costs                                                        $3,629,019

             Questioned Federal Costs
                     Finding 6                                                               $733
                     Finding 7                                                               $168
                     Finding 8                                                             ($1,436)
                     Finding 9                                                             $17,214
                     Finding 10                                                            $20,660
                     Finding 11                                                              $270

             Questioned Match Costs                                                           $0

             Total Questioned Costs                                                         $37,609

Finding 6: American Red Cross of Greater Grand Rapids (American Red Cross) Over-
Reported In-Kind Contributions on the Expense Report (PER)

As part of the grant agreement, American Red Cross was required to cost-share or match costs,
which means that a portion of the costs are to be paid by the grantee and not the Federal
Government. Kearney determined that American Red Cross cost-shared with in-kind
contributions in the form of supervisor hours. In recalculating the in-kind contributions, Kearney
discovered a discrepancy between the time recorded on supervisor timesheets and the amounts
reported on the American Recovery and Reinvestment Act (Recovery Act) PER for program
year 2009-2010. This variance reflected an overstatement of$733, which Kearney determined
was due to a manual calculation error.

Criteria

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations, Attachment A, "Basic
Considerations," states:

       "2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto under these
          principles
       b. Conform to any limitations or exclusions set forth in these principles or in the award
          as to types or amount of cost items
       c. Be consistent with policies and procedures that apply uniformly to both federally-
          financed and other activities of the organization


                                                    18
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



       d. Be accorded consistent treatment
       e. Be determined in accordance with generally accepted accounting principles (GAAP)
       f. Be adequately documented."

Recommendations

6a.    Kearney recommends that the Corporation resolve the $733 in questioned costs that was
       due to a lack of supporting documentation.

6b.    Kearney recommends that the Corporation work with the grantee to ensure that its
       subgrantees' internal controls are strengthened to assure that claimed in-kind
       contributions are accurately reported.

Commission's Response

Agree. The Commission will encourage the sub grantee to maintain reconciliation
documentation with its copy of the Federal Financial Report for audit purposes.

Kearney's Response

We reviewed the Commission's response and have no additional comments.

Finding 7: Michigan State University (MSU) Miscalculated Matching Costs

Kearney selected a representative sample of 10 transactions from the MSU accounting detail to
test for compliance with the match cost terms ofthe grant agreement, OMB Circulars, and other
applicable guidance.

According to the budget narrative in the grant agreement, local member travel is budgeted as 100
percent match cost. Member training is budgeted as 60 percent Federal and 40 percent match
cost.

One of Kearney's samples was a travel voucher for $435. The voucher consisted of$158 for
member training costs and $277 for local travel.

MSU charged $263 to Federal costs. The maximum amount for Federal costs was $95 ($158*60
percent). The responsible MSU employee inaccurately calculated the Federal and match
allocation percentages, and subsequently reported these amounts in the FFR and accounting
records. Kearney questioned overstated Federal costs of$168 ($263 - $95), which is the
difference between what was charged to the Federal share and the maximum amount permitted to
be charged. Inadequate review of incurred expenses prior to payment increases the risk that
inaccurate and/or unallowable costs will be charged to Federal programs.




                                                19
lEAR NEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



Criteria

OMB Circular No. A-21, Cost Principles for Educational Institutions, states:

       "2. Factors affecting allowability of costs. The tests of allowability of costs under these
       principles are: (a) they must be reasonable; (b) they must be allocable to sponsored
       agreements under the principles and methods provided herein; (c) they must be given
       consistent treatment through application of those generally accepted accounting
       principles appropriate to the circumstances; and (d) they must conform to any limitations
       or exclusions set forth in these principles or in the sponsored agreement as to types or
       amounts of cost items."

Recommendations

7a.    Kearney recommends that the Corporation resolve the questioned costs, totaling $168,
       and recover disallowed costs.

7b.    Kearney suggests that the Corporation review controls over reporting to ensure
       submissions are in accordance with Government requirements, and Federal and match
       percentages, as stated in the budget narrative, are properly applied. Kearney also
       suggests that the Corporation ensure sufficient controls are designed and operating
       effectively over reporting processes.

Commission's Response

Agree. Michigan State University believes this to be an isolated, clerical error and have
reminded staff of the travel allocation percentages for this program.

Kearney's Response

We reviewed the Commission's response and have no additional comments.

Finding 8: Commission Miscalculated Member Living Allowances

Members are to be paid in accordance with LAPS. Kearney selected a sample of 100 members
to validate that members received the proper living allowance during their terms of service.
During testing, Kearney noted that four members' W-2 forms did not agree to the total amount
listed on the LAPS provided by the sub grantees due to the Commission and sub grantees not
performing reconciliations between payroll records and supporting documentation (e.g., LAPS,
timesheets, and W-2s) prior to certifying documents. The programs and the amount of living
allowances resulted in the questioned costs shown in the table below and a net underpayment of
$1,436.




                                                 20
    KEARNEY&                                         Agreed-Upon Procedures for Corporation for National and Community Service

    COMPANY                                                     Grants Awarded to the Michigan Community Service Commission




                                                                                              - --
,         -        - -     -        -    -           -        -        - -       -   - - -        -     -                 -   ---


                                                                                  W-"             LAPS          Qllestioned               I

              Suhgranlcc                         Program Namc                   \   -         A                   Li\ ing
I
---                        -   - -                       - - -
                                                                                • 111011111

                                                                                        -
                                                                                              ..... 111011111    All
                                                                                                                .....   0\\ allc('

                                                                                      ---

    American Red Cross of Greater
                                        Together We Prepare                          10,905           11,400                    (495)
    Grand Rapids
    American Red Cross of Greater
                                        Together We Prepare                          11,082           11,800                    (718)
    Grand Rapids
    American Red Cross of Greater
                                        Together We Prepare                          23,766       23,200                             52
    Grand Rapids 2
                                                    Net Questioned Costs from Member Testing                                  $(1,436)


    Criteria:

    CFR, Title 45, Section 2522.240, "What financial benefits do AmeriCorps participants serving in
    approved AmeriCorps positions receive?" states:

              "(b) Living allowances-(l) Amount. Subject to the provisions of this part, any
              individual who participates on a full-time basis in an AmeriCorps program carried out
              using assistance provided pursuant to §2521.30 of this chapter, including an AmeriCorps
              program that receives educational awards only pursuant to §2521.30(c) of this chapter,
              will receive a living allowance in an amount equal to or greater than the average annual
              subsistence allowance provided to VISTA volunteers under §105 of the Domestic
              Volunteer Service Act of 1973 (42 U.S.C. 4955). This requirement will not apply to any
              program that was in existence prior to September 21, 1993 (the date of the enactment of
              the National and Community Service Trust Act of 1993) ....

              (2) Maximum living allowance. With the exception of a professional corps described in
              §2522.11 0(a)(3), the AmeriCorps living allowances may not exceed 200 percent of the
              average annual subsistence allowance provided to VISTA volunteers under section 105
              of the Domestic Volunteer Service Act of 1973 (42 U.S.C. 4955). A professional corps
              AmeriCorps program may provide a stipend in excess of the maximum, subject to the
              following conditions: (i) Corporation assistance may not be used to pay for any portion of
              the allowance ... "

    Recommendation

    8.        Kearney recommends that the Corporation ensure that the grantee strengthen its program
              monitoring procedures to meet the requirements of 45§ CFR 2522.240, and ensure that
              stipends paid to members are in accordance with the LAPS amount.




    2 Kearney noted one exception in which a sampled member served two consecutive program years with the
    maximum living allowance of$23,200 ($11,400 + $11,800) in total for both program years. The sampled member
    received more than this maximum amount on his W-2 forms for the two program years. The member repaid his
    gross pay for one pay period ($513) to American Red Cross of Greater Grand Rapids, but was still overpaid by $52.


                                                                  21
KEARNEY&                                  Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                              Grants Awarded to the Michigan Community Service Commission



Commission's Response

Disagree in part.

The Commission does not calculate member living allowances, certify member timesheets, or
issue the W-2 forms. Member living allowances are processed by the subgrantees, timesheets
are signed by the member's supervisor at the sub grantee level, and the sub grantee has
responsibility for issuing W-2 forms to its members.

The finding states there are no reviews of payroll records and supporting documentation (such as
the Living Allowance Payment Schedule, time sheets and W-2 forms) prior to certifying the
documents. The Commission does not believe it is practical to require the sub grantees to
reconcile the Living Allowance Payment Schedule to the W-2 forms prior to payroll certification
given they are issued only once per year.

The Commission will encourage the subgrantees to periodically evaluate the living allowance
paid with the Living Allowance Payment Schedule to ensure the amount paid to the member is
within the maximum.

Kearney's Response

We appreciate the Commission's response and support the Commission working with the
subgrantees to effectively address this issue.

Finding 9: Commission Incurred Unallowable Costs

Kearney selected a representative sample of 87 transactions from the Commission's accounting
detail, reconciled the sample with the supporting documentation, and tested for compliance with
the grant agreement terms, OMB Circulars, and other applicable laws and regulations. As a
result of its testing, Kearney identified that for six of 87 samples tested, the Commission reported
expenditures in its FFR that were related to a grant awarded to another Michigan Department of
Human Services (DHS) agency. The insufficient review of expenditures and supporting
documentation prior to payment resulted in the Commission overstating its costs on the
September 30, 2011 FFR submission by $4,015.

Additionally, the Commission performed a reconciliation between its transaction-level
accounting records and costs reported on the FFR, and identified an error of $13,199 in the
September 30,2011 FFR submission. A duplicate entry in the accounting records caused costs
to be overstated by $13,199.

Criteria

OMB Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, "General Principles for Determining Allowable Costs," states:




                                                  22
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



       "1. Factors affecting allowability of costs. To be allowable under Federal awards, costs
       must meet the following general criteria:

       a. Be necessary and reasonable for proper and efficient performance and administration
          of Federal awards
       b. Be allocable to Federal awards under the provisions of this Circular
       c. Be authorized or not prohibited under State or local laws or regulations
       d. Conform to any limitations or exclusions set forth in these principles, Federal laws,
          terms and conditions of the Federal award, or other governing regulations as to types
          or amounts of cost items
       e. Be consistent with policies, regulations, and procedures that apply uniformly to both
          Federal awards and other activities ofthe governmental unit
       f. Be accorded consistent treatment. A cost may not be assigned to a Federal award as a
          direct cost if any other cost incurred for the same purpose in like circumstances has
          been allocated to the Federal award as an indirect cost
       g. Except as otherwise provided for in this Circular, be determined in accordance with
          generally accepted accounting principles
       h. Not be included as a cost or used to meet cost sharing or matching requirements of
          any other Federal award in either the current or a prior period, except as specifically
          provided by Federal law or regulation
       1. Be the net of all applicable credits
       J. Be adequately documented."

Recommendations

9a.    Kearney recommends that the Corporation resolve the questioned costs, totaling $17,214
       ($4,015 + $13,199), and recover disallowed costs.

9b.    Kearney recommends that the Corporation ensure that costs were properly reversed.

Commission's Response

Disagree. This award has no match requirement. The Commission determined the costs were
applicable to a VISTA award incurred by another office in the department. The amount picked
up was State general funds, not Federal funds. There was no cost to the grant and/or loss of
match as a result of this reporting.

The Commission performed a reconciliation between its transaction level accounting records and
the costs reported on the Federal Financial Report which identified the error of$13,199 on the
September 30, 2011, Federal Financial Report submission. A change in the reporting process
resulted in a duplicate entry and caused costs to be overstated by that amount. The duplicate
entry had already been identified by the Department's Accounting Bureau prior to this review.
The reversing entry was reflected on the Federal Financial Report submitted to the Corporation
for the period ended March 31, 2012.




                                                23
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Micbigan Community Service Commission



Kearney's Response

We appreciate the Commission's response. However, during our site visit, the expenses for the
VISTA award were included in the direct cost accounting detail that reconciled to the FFR.

The Corporation should ensure that the duplicate entry was properly reversed, and that the
Commission adjust its September 30, 2011 FFR for this cost.

Finding 10: American Red Cross Accounting Detail Does Not Reconcile to the FFR

American Red Cross performed a reconciliation between its transaction-level accounting records
and costs reported on the FFR; however, Kearney noted that sufficient explanations for
accounting entries, adjustments, and reconciling items were not properly documented.
Additionally, Kearney identified $20,660 in overstated costs on the FFR that were not recorded
in the general ledger. Kearney determined that costs were overstated due to adjusting entries
processed during financial reporting. Failure to adequately document or explain differences
between accounting records and source files may allow potentially incomplete, fictitious, or
otherwise inaccurate information to be recorded in the grant files and external reports.

Furthermore, Kearney determined that the accounting system was inadequate during the period
of review. American Red Cross did not segregate grant costs in the accounting system. This
resulted in an increased level of effort required to complete the reconciliation and properly match
costs between the accounting records and the FFR, and a corresponding increased risk of error.

Criteria

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations, Attachment A, "Basic
Considerations," states:

       "2. Factors affecting allowability of costs. To be allowable under an award, costs must
           meet the following general criteria: ...

       g. Be adequately documented."

OMB Circular No. A-It 0, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart
C, "Standards for Financial Management Systems," states:

       "(b) Recipients' financial management systems shall provide for the following: ...

           (2) Records that identify adequately the source and application of funds for federally-
               sponsored activities. These records shall contain information pertaining to
               Federal awards, authorizations, obligations, unobligated balances, assets, outlays,
               income and interest.




                                                 24
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



           (3) Effective control over and accountability for all funds, property and other assets.
               Recipients shall adequately safeguard all such assets and assure they are used
               solely for authorized purposes.
           (4) Comparison of outlays with budget amounts for each award. Whenever
               appropriate, financial information should be related to performance and unit cost
               data."

Recommendations

Kearney recommends that the Corporation:

lOa.   Resolve the unsupported questioned costs, totaling $20,660, and recover disallowed
       costs;

lOb.   Ensure that the Commission instructs the grantee to reconcile its accounting records to
       amounts reported, ensure that transactions and accounting records are accurate and
       supported by relevant and sufficient documentation, review controls over reporting to
       ensure submissions are in accordance with Government requirements, and ensure
       sufficient controls are designed and operating effectively over reporting processes;

IOc.   Kearney notes that currently, American Red Cross is operating on a different accounting
       system; therefore, no specific recommendations are necessary; however, Kearney
       recommends that the Corporation verify that the new accounting system is in compliance
       with Government requirements; and

IOd.   Ensure that the Commission increases the level and frequency of its fiscal monitoring
       efforts to ensure that controls over financial reporting are more effective.

Commission's Response

Disagree. American Red Cross reviewed documentation for the finding and noted that
AmeriCorps program director compensation was recorded in OnCorps reports but was not
reflected in the general ledger for the program. Costs reported on the Federal Financial Report
were supported.

The Commission will encourage the sub grantee to maintain reconciliation documentation with
its copy of the Federal Financial Report for audit purposes.

Kearney's Response

We appreciate the Commission's response. The Corporation should verify supporting
documentation for the $20,660, which was not provided in a timely manner, and recover costs
that cannot be supported.




                                                 25
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



Finding 11: American Red Cross Incurred Unsupported and Unallowable Travel Costs

Kearney selected a representative sample of20 transactions, totaling $860, from the American
Red Cross' accounting detail to test for compliance with the terms of the grant agreement, OMB
Circulars, and other applicable guidance, and noted the following:

Unsupported Costs

Kearney did not receive documentation to support six of the 20 samples selected for testing,
amounting to $270. The lack of documentation prevented Kearney from determining if costs
were incurred during the grant period, charged to the correct program, and considered allowable
in accordance with the grant provisions and other regulatory guidance.

American Red Cross does not properly enforce its policy requiring the submission of receipts to
support claimed travel expenses; therefore, Kearney is questioning the unsupported costs of
$270.

Criteria

OMB Circular No. A-122, Cost Principles for Non-Profit Organizations, Attachment A, "Basic
Considerations," states:

       "2. Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:

       h. Be reasonable for the performance of the award and be allocable thereto under these
          principles
       1. Conform to any limitations or exclusions set forth in these principles or in the award
          as to types or amount of cost items
       J. Be consistent with policies and procedures that apply uniformly to both federally-
          financed and other activities of the organization
       k. Be accorded consistent treatment
       1. Be determined in accordance with generally accepted accounting principles (GAAP)
       m. Be adequately documented."

American Red Cross Staff Travel and Reimbursement Policy, Section H.E.I.l, "Grant Funded
Travel," states:

       "When a traveler is traveling on U.S. Government grant funded travel, they must comply
       with the travel requirements as outlined in the grant. In many cases, U.S. Government
       grants require that all travel be performed within the Fly America Act ('FAA')
       provisions. In the event that the grant does not specify a travel policy, travel is to be
       obtained compliant with both Red Cross policy and the Fly America Act."




                                                26
KEARNEY&                                  Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                              Grants Awarded to the Michigan Community Service Commission



Recommendations

Kearney recommends that the Corporation:

Iia.    Resolve the unsupported questioned costs, totaling $270, and recover the disallowed
        costs and

11 b.   Ensure that the Commission instructs the subgrantee to be more diligent about ensuring
        its travel policy is properly enforced, including controls over documentation for
        transactions and accounting records. Kearney also recommends that the Corporation
        ensure that the travel policy is distributed, and that all employees are made aware of this
        requirement.

Commission's Response

Disagree. The finding states the sub grantee does not enforce its policy requiring the submission
of receipts to support claimed travel expenses. The subgrantee's travel policy did not require
receipts for under $35. The travel expense voucher is the documentation for the transaction.

The Commission followed-up with the subgrantee who stated it will be distributing revised travel
policy to its staff.

Kearney's Response

We appreciate the Commission's response. The Corporation should ensure that the revised
travel policy is distributed to American Red Cross staff and recover any unsupported costs.




                                                  27
KEARNEY&                                                   Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                               Grants Awarded to the Michigan Community Service Commission



Schedule D

                                 Michigan Community Service Commission
                           Corporation for National and Community Service Awards
                                 Schedule of Claimed and Questioned Costs
                                           Award No. 09RFHMIOOl
                   -        -                 ---                 -            ------               --             -

               -                -              ---                    --         - - - -
                                                                                                    Alllount           -
             Claimed Federal Costs                                                                        $0

             Questioned Federal Costs                                                                     $0

             Questioned Match Costs                                                                       $0

             Total Questioned Costs                                                                       $0

             Questioned Education Awards                                                               $9 450

Finding 12: MSU Inappropriately Approved Timesheets

Member time sheets are approved by a supervisor when they are entered into OnCorps Reports.
Of the 100 member timesheets reviewed, Kearney identified time sheets for two full-time
members that were approved by supervisors several days before the members served the last
hour recorded in the pay period. Timesheets validate that the members worked the correct
amount of hours to earn an education award. Due to unsupported documentation, education
awards were questioned in prorated amounts for the hours not inappropriately approved by a
supervisor. Kearney questioned the education awards in the table below.
                       I                         - -                              ----               --

                       I                                                   Amount of
                                                                                                  Total        I
                                                                                              lInsu pportrd I
                                        Program NanH'                      Education
                                                                                                Hours for
                                                                            A" ard
                                    -                  -               - -               -
                                                                                             P rog ram \ e~!
                                   Recovery 4-H Mentor                          $4,725                   96
                                   Recovery 4-H Mentor                           4,725                181.5
                                Questioned Education Awards                     $9,450

Criteria

The Corporation's AmeriCorps Provisions (2011), Section IV.C.6, "Completion of Terms of
Service," states:

       "The grantee must ensure that each member has sufficient opportunity to complete the
       required number of hours of service to qualify for their education award. Members must
       be exited within 30 days of the end oftheir term of service. Should a program not be
       renewed, a member who was scheduled to continue in a term of service may either he
       placed in another program where feasible, or a member may receive a pro-rated education
       award if the member has completed at least 15% of the service hour requirement."




                                                                      28
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



Recommendations

12a.   Kearney recommends that the Corporation resolve and recover $9,450 in questioned
       education awards.

12b.   Kearney recommends that the Corporation ensure that the Commission strengthens the
       monitoring of its sub grantees to determine whether member timesheets support the
       service hours reported and certified in eSPAN and My AmeriCorps Portal. The
       Corporation should also ensure that the Commission reconciles the hours stated in
       eSPAN with the hours recorded in OnCorps Reports.

Commission's Response

Disagree. See the commission's response to Finding 1.

Kearney's Response

We appreciate the Commission's response. While policy may dictate that each subgrantee may
be required to reconcile the member service hours as part of the grant closeout process, Kearney
found that the subgrantee was unable to provide evidence to validate that all hours recorded were
actually worked. Therefore, Kearney recommends that the Corporation ensure that sub grantee
monitoring by the Commission is strengthened, and that the Corporation resolve the questioned
costs.




                                                29
KEARNEY&                                Agreed-Upon Procedures for Corporation for National aDd Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission



Schedule E

                        Michigan Community Service Commission
                  Corporation for National and Community Service Awards
                        Schedule of Claimed and Questioned Costs
                                  Award No. lOESHMIOOl
           r------ - - --                                         ----
           l________                                 _ _ ___                    A 1ll0llnt_ __
            Claimed Federal Costs                                                  $582,500

             Questioned Federal Costs                                               $1,347


             Questioned Match Costs                                                    $0

             Total Questioned Costs                                                 $ 1,347


Finding 13: Commission Claimed Unsupported Costs

Kearney selected a representative sample of 87 transactions from the Commission accounting
detail, reconciled the sample with the supporting documentation, and tested for compliance with
the grant agreement terms, OMB Circulars, and other applicable laws and regulations. As a
result of its testing, Kearney identified the following issue:

   •   For five of 87 samples tested, the Commission was unable to provide documentation or
       other evidence supporting expenditures, totaling $1,347.

Criteria

OMB Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, "General Principles for Determining Allowable Costs," states:

       "1. Factors affecting allowability of costs. To be allowable under Federal awards, costs
       must meet the following general criteria:

       a. Be necessary and reasonable for proper and efficient performance and administration
          of Federal awards
       b. Be allocable to Federal awards under the provisions of this Circular
       c. Be authorized or not prohibited under State or local laws or regulations
       d. Conform to any limitations or exclusions set forth in these principles, Federal laws,
          terms and conditions ofthe Federal award, or other governing regulations as to types
          or amounts of cost items
       e. Be consistent with policies, regulations, and procedures that apply uniformly to both
          Federal awards and other activities ofthe governmental unit
       f. Be accorded consistent treatment. A cost may not be assigned to a Federal award as a
          direct cost if any other cost incurred for the same purpose in like circumstances has
          been allocated to the Federal award as an indirect cost


                                                30
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



       g. Except as otherwise provided for in this Circular, be determined in accordance with
          generally accepted accounting principles
       h. Not be included as a cost or used to meet cost sharing or matching requirements of
          any other Federal award in either the current or a prior period, except as specifically
          provided by Federal law or regulation
       1. Be the net of all applicable credits
       J. Be adequately documented."

Recommendations

13a.   Kearney recommends that the Corporation resolve the questioned costs, totaling $1,347,
       and recover disallowed costs.

13b.   Kearney recommends that the Corporation ensure that grantees maintain adequate
       documentation to support all expenditures and other grant activities.

Commission's Response

Agree. Internal controls have been reviewed and revised procedures have been implemented to
mitigate the risk.

Kearney's Response

We reviewed the Commission's response and have no additional comments.




                                                  31
IEARNEY&                                     Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                                 Grants Awarded to the Michigan Community Service Commission



Schedule F

                            Michigan Community Service Commission
                      Corporation for National and Community Service Awards
                             Schedule of Claimed and Questioned Costs
                                      Award No. llPTHMIOOl
             - - - - -                 --           -                --             -                   --]
             --   -       -   -   --   ---        ----       - -   ---
                                                                                        A 1110 1111 t
                                                                                              --


             Claimed Federal Costs                                                           $44,998

             Questioned Federal Costs
                     Finding 14                                                               $1,103

             Questioned Match Costs                                                              $0

             Total Questioned Costs                                                          $1 , 103

Finding 14: Commission Claimed Unallowable Costs

Kearney selected a representative sample of87 transactions from the Commission's accounting
detail, reconciled the sample with the supporting documentation, and tested for compliance with
the grant agreement terms, OMB Circulars, and other applicable laws and regulations. As a
result of its testing, Kearney identified the following issue:

   •   For two of 87 samples tested, the Commission claimed costs, totaling $1,103, that were
       incurred in November and December 2010, which was prior to the start of the grant
       period of performance in January 2011. The Commission did not obtain approval from
       the Corporation for pre-award costs; therefore, Kearney is questioning the unallowable
       costs of $1,103.

Criteria

OMB Circular No. A-87, Cost Principles for State, Local, and Indian Tribal Governments,
Attachment A, "General Principles for Determining Allowable Costs," states:

       "31. Pre award costs. Pre award costs are those incurred prior to the effective date of the
       award directly pursuant to the negotiation _and in anticipation of the award where such
       costs are necessary to comply with the proposed delivery schedule or period of
       performance. Such costs are allowable only to the extent that they would have been
       allowable if incurred after the date of the award and only with the written approval of the
       awarding agency."

Recommendations

14a.   Kearney recommends that the Corporation resolve the questioned costs, totaling $1,103,
       and recover disallowed costs.




                                                        32
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan CommuDity Service Commission



14b.   Kearney recommends that the Corporation ensure that grantees receive prior written
       approval for pre-award costs.

Commission's Response

Disagree. The charges were not pre-award costs. The Commission received permission to
extend the grant period beyond the original grant ending date. The expenses were incorrectly
charged to a new grant but were transferred to the correct grant prior to the reporting period and
end date of the old grant. Funds were drawn and reported in the correct grant period.

Kearney's Response

We appreciate the Commission's response; however, the Commission did not provide supporting
documentation for the transfer in a timely manner, and the costs were included in the accounting
detail that tied to the FFR.




                                                 33
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



Exhibit B

                                     Compliance Findings

Finding 15: Lack ofAdequate Procedures for Conducting Criminal Background Checks and
Searches of the National Sex Offender Public Registry

Kearney & Company, P.C. (Kearney) selected a sample of 100 member files to test whether the
grantee and subgrantees complied with selected AmeriCorps provisions prior to enrolling
members, such as performing a search of the National Sex Offender Public Registry (NSOPR)
and ensuring compliance with the Drug Free Workplace Act. Kearney noted the following:

   •   For one sampled file, Michigan AmeriCorps Partnerships did not provide evidence that
       National Service Criminal History checks were conducted prior to approving that
       member's application
   •   For one sampled file, Habitat for Humanity of Michigan (Habitat for Humanity)
       approved and enrolled a member into Electronic System for Programs, Agreements, and
       National Service Participants (eSPAN) prior to the completion of a drug test, which was
       required by the subgrantee's member provisions
   •   For 13 members, American Red Cross of Greater Grand Rapids (American Red Cross)
       did not provide evidence that Internet Criminal History Access Tool
       (lCHAT) background checks were completed prior to approving those members'
       applications. ICHAT allows the search of public records contained in the Michigan
       Criminal History Record maintained by the Michigan State Police, Criminal Justice
       Information Center.

Kearney also found that the subgrantees tested were not properly monitoring their programs and
members, as follows:

   •   Adequate enrollment and exit paperwork was not maintained in the members' files.
       Kearney received the following response from one subgrantee, "We do not keep criminal
       history results in our personnel records. Since this was a temporary job, with the results
       coming from ICHAT - it is a point in time answer. We run a new check for each
       temporary job a person is hired into. The fact that there is a signed release indicates that
       a check was done"
   •   According to the Michigan Community Service Commission's (the Commission)
       Program Officer, "I cited the lack of the ICHAT during the time of my site visit.
       [American] Red Cross was under the impression that their check system was allowed.
       The Program Director at the time indicated that he ran the appropriate ICHAT checks
       based on my conversation with him. They may not have been filed for some reason, and
       then there was a staff transition"
   •   Due diligence was not performed over enrollment requirements to ensure that all
       activities were satisfactorily performed prior to activating members in the Corporation for
       National and Community Service's (the Corporation) information systems.




                                                 34
KEARNEY&                                  Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                              Grants Awarded to the Michigan Community Service Commission



Failure to conduct criminal background checks and NSOPR searches prior to enrolling members,
as required by AmeriCorps provisions, places the subgrantee, the Commission, the Corporation,
and communities served at risk. It also incurs the additional administrative burden to ensure that
members with pending criminal background checks are supervised at all times when interacting
with vulnerable populations.

Criteria

Code of Federal Regulations (CFR), Title 45 Section 2522.205, "To Whom Must I Apply
Suitability Criteria Relating to Criminal History?" states:

       "You must apply suitability criteria relating to criminal history to a participant or staff
       position for which an individual receives a Corporation grant-funded living allowance,
       stipend, education award, salary, or other remuneration."

CFR, Title 45 Section 2540.205, "What Documentation must I Maintain Regarding a National
Service Criminal History Check for a Covered Position?" states:

       "(a) Document in writing that you verified the identity of the individual in a covered
       position by examining the individual's government-issued photo identification card, and
       that you conducted the required checks for the covered position; and (b) Maintain the
       results of the National Service Criminal History check (unless precluded by State law)
       and document in writing that you considered the results in selecting the individual."

Recommendation

15.    Kearney recommends that the Corporation require that the Commission strengthen its
       program monitoring procedures to ensure that they meet the requirements of 45 CFR §§
       2522,2540 by including screenshots ofNSOPR and ICHAT in each member's file as
       documented evidence that a background check was performed.

Commission's Response

Agree in part.

Drug Free Workplace Act
 The report states files were tested for compliance with the Drug Free Workplace Act and cited
 a subgrantee for failure to complete a drug test prior to enrollment. The Drug Free Workplace
 does not apply to a sub grantee nor does the Act require a drug test prior to employment or
 enrollment. In addition, the subgrantee's internal procedures do not require a drug test prior to
 enrollment. The subgrantee does inform members that they may be subject to random drug
 testing.

Criminal Background Checks and National Public Sex Offender Registry Checks
 The Commission requires the sub grantees to retain documentation of the required background
 checks for audit purposes. The Commission now reviews all member files as part of the on-


                                                  35
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission



  site monitoring to ensure compliance with the background checks.


Kearney's Response

We appreciate the Commission's response and suggest that the Corporation verify that the
corrective action implemented by the grantee is effective.

Finding 16: Lack of Sufficient End-of-Term Documentation

Kearney selected a sample of 100 members to validate controls over member separations, and
noted that end-of-term forms were missing from member files, as shown in the table below.




Evaluations, particularly end-of-term reviews, are necessary to ensure that members are eligible
for additional service terms and education awards, and that grant objectives have been met.
Subgrantees' failure to obtain and submit this information promptly could result in inaccurate
Corporation member emollment records.

Criteria

The Corporation's AmeriCorps Provisions (2011), Section IV.C.6, "Completion of Terms of
Service," states:

        "The grantee must ensure that each member has sufficient opportunity to complete the
       required number of hours of service to qualify for their education award. Members must
       be exited within 30 days of the end of their term of service. Should a program not be
       renewed, a member who was scheduled to continue in a term of service may either be
       placed in another program where feasible, or a member may receive a pro-rated education
       award if the member has completed at least 15% of the service hour requirement."

Recommendations

Kearney recommends that the Corporation:

16a.   Ensure that the Commission makes its sub grantees aware of and compliant with grant
       requirements for conducting and retaining member evaluations;



                                                 36
KEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission




16b.   Kearney recommends that the Commission ensure that its subgrantees document member
       enrollments, exit promptly, and submit this information to the Corporation in a timely
       manner.

Commission's Response

Agree with the finding for six of the seven cases cited. Sub grantees encounter difficulties
conducting the end-of-term reviews with those members who leave the AmeriCorps program
early. In spite of the efforts of the program directors to reach the departed members, end-of-term
reviews may not be completed in these situations. This was true for six of the seven cited in the
review of 100 member files. The seventh case was a member who exited with an award from
Faith in Youth. An end of term review was conducted and submitted with the original
submission for Faith in Youth.

To address the issue with members who leave the program early, the Commission requires the
sub grantees to document a performance evaluation of the member and include the efforts to
reach out to the member.

Kearney's Response

We appreciate the Commission's response. For the seventh case, the Commission did not
provide supporting documentation in a timely manner. We suggest that the Corporation ensure
that the corrective action implemented by the grantee is effective.

Finding 17: Living Allowances Based on Hours Served

Kearney selected a sample of 100 members to validate whether living allowances were paid
based on a pre-set amount allocated over the member's term of service. Kearney found that:

   •   Michigan AmeriCorps Partnerships, Michigan State University (MSU), and City Year,
       Inc. paid members a stipend that was based on an hourly wage rather than the pre-set
       amount
   •   MSU and American Red Cross of Greater Grand Rapids' (American Red Cross) contracts
       stated that members will not receive compensation while on suspension.

MSU's code of conduct does not comply with the AmeriCorps living allowance provisions, and
states that a member will not receive compensation while on suspension.

American Red Cross' contract with the AmeriCorps members does not comply with the
AmeriCorps living allowance provisions, and states that temporary suspended members may not
receive a living allowance for the suspension period.

Paying members on an hourly basis could result in payments exceeding the allowable stipend
amounts.



                                                 37
KEARNEY&                                Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                            Grants Awarded to the Michigan Community Service Commission




Criteria

CFR, Title 45, Sub-Section 2522.245, "How are Living Allowances Disbursed?" states:

       "A living allowance is not a wage and programs may not pay living allowances on an
       hourly basis. Programs must distribute the living allowance at regular intervals and in
       regular increments, and may increase living allowance payments only on the basis of
       increased living expenses such as food, housing, or transportation. Living allowance
       payments may only be made to a participant during the participant's term of service and
       must cease when the participant concludes the term of service. Programs may not
       provide a lump sum payment to a participant who completes the originally agreed-upon
       term of service in a shorter period of time."

Recommendation

17.    Kearney recommends that the Corporation ensure that the Commission strengthen its
       program monitoring procedures to ensure that they meet the requirements of Section
       XXV, "Corporation for National and Community Service," of 45 CFR by verifying that
       the members' files validate the living allowances and education awards received.

Commission's Response

Agree in part. The Commission recognizes that in some cases the subgrantee's payroll system
will not process payments except when there are hours associated with the transaction. In these
cases, the sub grantees find it necessary to process the living allowance using hours so the
member can receive the amount owed to them and the appropriate withholdings are made. It is
not the sub grantees intent to be noncompliant, but without a payroll system change or added
administrative processes, it provides a means to ensure the member receives the living
allowance.

The finding states there is noncompliance because subgrantee policy states that suspended
members may not receive a living allowance. The Frequently Asked Questions on the
Corporation's website states, Members who are suspended may not receive a living allowance.

The Commission will encourage the subgrantees to periodically evaluate the living allowance
paid with the Living Allowance Payment Schedule to ensure the amount paid to the member is
within the maximum.

Kearney's Response

We appreciate the Commission's response and support the Commission working with the
subgrantees to effectively address this issue.




                                                38
IEARNEY&                                 Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                             Grants Awarded to the Michigan Community Service Commission




Finding 18: Discrepancies in Member Roster Comparison

OnCorps Reports is a software support service that works exclusively with AmeriCorps State,
National Direct, Volunteers in Service to America (VISTA), and other national and community
service programs. The Commission uses OnCorps Reports to maintain documentation regarding
member services.

The Corporation uses the eSPAN application to track AmeriCorps members and education
awards. eSPAN is the central database for National Service Trust and AmeriCorps participant
systems.

Kearney compared member rosters from OnCorps Reports and eSPAN, and noted the following
discrepancies:

   •   Three members were recorded in OnCorps Reports, but did not appear in the eSP AN
       database
   •   Seven member records were duplicated in both systems during the period of review and
       have since been deleted as a result of the review
   •   Five records were created as "dummy" test accounts in OnCorps Reports, but were not
       deleted in a timely manner; however, these records have since been deleted as a result of
       the review
   •   Two members were recorded in eSPAN but did not appear in the OnCorps Reports
       database.

The Commission does not perform reconciliations of member rosters between the systems, and
therefore, cannot ensure that member records agree, or validate that records are entered into or
deleted from both systems accurately and in a timely manner.

Incorrect social security numbers were mistakenly recorded in OnCorps Reports by another
AmeriCorps program, which prevented two members from appearing in the OnCorps Reports
system in a timely manner. Although entered in eSPAN, the members were unable to be
enrolled in OnCorps Reports until the incorrect social security numbers from the other program
were corrected.

Inaccurate member rosters can result in inaccurate reporting and evaluations of AmeriCorps
programs. This issue may also result in improper payments to members.

Criteria

The Governrnent Accountability Office's Standards ofInternal Control in the Federal
Government, November 1999, page 15, states:

       "Transactions should be promptly recorded to maintain their relevance and value to
       management in controlling operations and making decisions. This applies to the entire
       process or life cycle of a transaction or event from the initiation and authorization


                                                 39
KEARNEY&                                   Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                               Grants Awarded to the Michigan Community Service Commission



         through its final classification in summary records. In addition, control activities help to
         ensure that all transactions are completely and accurately recorded.

         Internal control ... and other significant events need to be clearly documented, and the
         documentation should be readily available for examination. The documentation should
         appear in ... paper or electronic form. All documentation and records should be properly
         managed and maintained."

OMB Circular No. A-133, Audits ojStates, Local Governments and Non-Profit Organizations,
Subpart C, "Auditees," Section 300, "Auditee Responsibilities," states:

         "The auditee shall:

          (b) Maintain internal control over Federal programs that provides reasonable assurance
         that the auditee is managing Federal awards in compliance with laws, regulations, and the
         provisions of contracts or grant agreements that could have a material effect on each of
         its Federal programs."

Recommendation

18.      Kearney recommends that the Corporation ensure that grantees perform a semi-annual
         reconciliation between the OnCorps Reports roster and eSP AN to ensure that member
         rosters are complete and accurate.

Commission's Response

Agree in part.

      1. As noted for finding 1, each sub grantee is required to reconcile the member service hours
         in OnCorps to eGrants as part of the grant closeout process. The subgrantee must
         compare each member and highlight discrepancies on both reports. The sub grantee must
         resolve discrepancies. The subgrantees submit the OnCorps Report and eGrants reports
         to the Commission as part of the closeout package.

      2. No action needed. As noted, corrections were made during the time ofthe review.

      3. The Commission allows program directors to create dummy accounts in OnCorps
         Reporting for the purpose of training members and supervisors. The dummy accounts are
         not deleted but are designated as inactive in accordance with instructions received from
         the OnCorps development team.

      4. The status of the two members recorded in eGrants but not appearing in OnCorps Reports
         are as follows:

         •   One member was enrolled and exited from the AmeriCorps Portal (eGrants).
         •   One member enrollment had been escalated to the Corporation program officer prior


                                                   40
KEARNEY&                              Agreed-Upon Procedures for Corporation for National and Community Service

COMPANY                                          Grants Awarded to the Michigan Community Service Commis8ion



          to this review. The member was not enrolled in eGrants because the system was not
          making a slot available for enrollment. This cannot be remedied by the Commission
          and is awaiting resolution by the Corporation.

Kearney's Response

We appreciate the Commission's response, and suggest that the Commission continue to work
with the Corporation to resolve the issue.




                                              41
                     APPENDIX A
_______________________________________________________________
       MICHIGAN COMMUNITY SERVICE COMMISSION’s
              RESPONSE TO THE DRAFT REPORT
                                                                 



                                                    STATE OF MICIllGAH
                                                    STAT60F  MICHICAN
                                      DEPARTMENT OF HUMAN SERVICES
                                                          SERViCeS
                                                           LA.NSI NO
                                                           LANSINQ
    RICKSNYOER
    RICK SNYDER                                                                                             MAUM D. CORRIGAN
                                                                                                            MAURA
     UOV!/ONOR
     OOYI!:IIHOIII                                                                                                 DIRECTOR
                                                                                                                   OIRECron

                                                       August
                                                       AU9ust 1,
                                                              " 2012
                                                                 2012



      Stuart Axenfeld
      Assis tant Inspector General for Audit
      Assistant
      Office of the Inspector General
      Corporation for Nallonal
                       National and Community
                                    Communlly Service
      1201 New York Avenue, Suite 830
      Washington, DC 20525

      Dear
      OBat Mr. Axenfeld:
               Axenfeld:

      The Department of Human Services Is submitting lisits response to the dratt
                                                                            draft report findings
                                                                                         findi ngs for the
      Agreed Upon Procedures
                   ProcsdIlf9S Review 01 of Michigan Community Service Commission. The responses
      are addressed based on Ihe                     Juty 2, 2012. Concerns regarding the report are
                              the draft report dated July
      addressed
      actdl6ssed under separate correspondence to the Corporation
                                                         COfporalJon Office of the Inspection General.
                                                                                                General

      Finding 1: Michigan State
                          Slate UnIversity
                                Univers ity Untimely
                                            Ulltimely Approval of Timesheets
                                                               ofTlme,heeb

      Disagree.  Membe~ enter their serviCe
      DlS3ilre&. Members                 service time into OnCOfJ)s.
                                                            OnCorps. Timesheetl
                                                                      Timesheets are a printout
                                                                                         prin tout of the
      member service lnfom'lation
                       information entered Into    OnCorps. The member service time was approved by
                                              mto OnCorps,
           supelVisors prior to the pay periOd
      site supervisors                   period end date to accommodate internal processes related to
           subgrantee's payroll system so Ihe
      the subgranlee's                      the payroll could be processed timely.
                                                                             timely. The member s6Mceservice
      tIme
      time was reviewed for accuracy after the Ihe pay period ended.
                                                               ended. The subgrantee's
                                                                           SUbgrtmtee's process provides
                                                   enlered into the system prior to the pay period end
      for adjustments if hours differ from those entered
                           seIVioe time entered into
      date. The member service                     Il\to OnCorps
                                                         OnCOfPS support the service hours reported.

      Each subgrantee       ~uired 1
            subgranlee Is required    0 reconcile the
                                     to           Ihe member service
                                                               leMce hours
                                                                     hours In OnCorps
                                                                              OoCorps to 10 eGrants
                                                                                            eGranLs as
      part of the grant
                  grant closeout process. The subgrantee
                                                 subgranlee must compare each member and highlight
      discrepancies on both
                         bolh reports.
                              re ports. Tha
                                        The subgrantee must resolve discrepancies. The subgranlees
                                                                                           subgrantees
      submit the OnCorps Report
                            Report and eGrants
                                         eGranls reports to      CommissIon as part of the closeout
                                                         to the Commission                 CI0$90...1
      package.

      Finding
      Findi ng 2: Accounts Payable
                           Pa yable Accrual Improperly Computed
                                                       Computed for Closed Out Contract

      Agree.
      Agree. A final payment was                against the grant for the period
                                   was made against                          period ended     December 31
                                                                                     ended December       31,, 2010.
      The system
            system recognized there were  were funds
                                                lunds available 10to bill
                                                                     blll against
                                                                          against and did nolnot recognize
                                                                                                 recognize thethe
      contract end
                 end date (January 7,  7, 2011
                                          2011)) for
                                                  fOf establishing a payable in In the
                                                                                   the accounting
                                                                                        accounting system.
      Therefore,
      Therefore, thethe system
                        system created
                                 crested a payable. The Commission thought   thought the
                                                                                       the grant
                                                                                           grant had closed
                                                                                                       closed outoul
      effeQlve December 31 , 2010,
      effedlve                            with the
                                  2010, with   tile final
                                                    r."al payment
                                                          paymenl and
                                                                    and did
                                                                          did not work or
                                                                              not work   or track
                                                                                            Irack. the
                                                                                                   the award after
      that
      that dale.
           date. The issue
                         Issue was
                               was discovered
                                    dIscovered after year end      do6Jng deadlines
                                                              end closing    deadlines for
                                                                                         for the fiscal year ended
      September 30,  SO, 2011
                         2011 , and
                                and could   not be reversed. The
                                     could nol                   The erroneous
                                                                      fW'roneous accounts
                                                                                   accounts payable
                                                                                               payable will
                                                                                                         will be
                                                                                                              be
      written  off in accordance
      wrltlert off    accordance with
                                    with State
                                          State requirements
                                                 requirements Inin Augusl
                                                                   Augl.l5t 2012.
                                                                             2012.

      Finding
      FindIng 3:
              3: Insuffic ient Habitat for Humanity
                 Insufficient              Humanity of
                                                    of Michigan
                                                       MIchIgan Frin ge Benefit
                                                                Fringe  Benoflt Deductions
                                                                                Deduct ions and
                                                                                            and
      Documentation

      Agree.
      Agree. Habitat
             Habitat for
                     fot Humanity
                         Humanity implemented
                                  Implemented aa reconcMiation
                                                 recoocllialion process January 2012.
                                                                process January


                           US SOUTH
                           235 SOUTH ORANOAVENUE
                                     GRANO AVENUE .. P.O.
                                                        P.O. BOX
                                                              BOX)ooI1
                                                                   30037.• LANS
                                                                           L/O,NSING,    MICHIGAN
                                                                                  li'IG, MICH IGAN ~.~
                                                                                                    II_
                                                                   (817) ~n·aQ~'
                                           _Jl'llr./lklIIn.IIOY '· (5111
                                           www.mlt/lIQJn.QOII            11"203$                                                

 


                                                              42
 




    Finding 4: living Allowance Incorrectly Reported

    Disagree Inin part. The Co mmission does not believe it
                             Commission                     is pn!Icticalto
                                                         n Is  practical 10 require the subgrantees to
               Ihe Uvlng
    reconcile the  living Allowance Payment Schedule to the W-2 forms prio{                  certification
                                                                            prior to payroll cert!flcaUon
          they are Issued
    given tl)ey      issued only once per year.

                          encourage the &ubgranteea
    The Commission will 81)COi.lrage    subgrantees to peflodicaUy  evaluate the living allowance
                                                       periodically evalua'e
    paid with the Living Allowance Payment Schedule to ensure the amount paid to the member
                                                                                         member is
    within the
           the maximum,
               maximum.

    Finding 5: Habitat      Humanity of
               HabItat for HumanIty      Michigan's AccountIng
                                     o f Michigan', Accounting Dotall
                                                               Detail Does Not Reconcile
                                                                               Recol'lclle to
    the Federal Financial
    Ihe         Finan cial Report

                                              the difference of $197,750
    Disagree. Habitat for Humanity identified lhe                                     below.
                                                                $197.750 as described below.

            $   48,641
                48,641       2010-2011 : Habitat for Humanity returned $10,256 of grant funds
                             201().2011
                                                 advanced and corrected allocations of $38,385 prior
                             which had been adVanced
                             to filing the final close out documents with the Corporation.
                                                                              Corporation.

            $ 104,512
              104.512        2009-2010:             HumanIty returned $33,887 of grant funds
                             2009-2010: Habitat for Humanity
                             whk:h had been advanced and had $70,825
                             which                             $70,625 of expenses that were
                             not allocated to the program in the organlzaUoo',            ~cords.
                                                                 organization's financial re cords.

            $ 46,597
            S 46.597         ARRA: Habitat for Humanity incurred $11 ,376 of workers
                                             insurance directly related to
                             compensation Insurance                         10 ARRA funded members,
                                                                                              members,
                             The audit occurred subsequent to            granl period and thus was nol
                                                                  10 the grant                         not
                             originally                 addition , $35,221 of in-kind
                                        allocated. In addition,
                             originanyallOcal&d.                               In·klnd expenses that
                             were incurred
                             were            at the
                                   Incurred al  tile Habitat for             affiUate level were nol
                                                              fOf Humanity affiliate             1'10\
                             recorded on Habitat for
                             recOfded                fOf Humanity's financial    records in
                                                                      financlat recoros  In accordance
                             with Generally Accepted Accounting Principles,
                             wllh Generally                             Principles.

    The
     The Commission
         CommiSSion will
                      Will encourage the subgrantee to\0 maintain
                                                         matntaln reconciliation
                                                                  reconcUiatlon documentation
                                                                                 documental1on with
    its
    115 copy of the Federal Financial
                            Rnanda! Report for  audit purposes.
                                            ' oraudil  pUrposes.

    The
    The Commission usesIJses 8a risk-based approach
                                             appi"oach to determining the
                                                                      lhe subgrantees
                                                                          subgranlees that     will be
                                                                                         IIlat wili be
    subject
    subjeot to
            to an on-site fiscal monitoring
                                  monitOring review. TheThe approached
                                                             approached was approved
                                                                             approved by the Ihe
    Corporation.
    Corporation, The risk based approach altows  allows the Commission to determine ifif a subgrantee
                                                                                            8ubgranlee will
    be subject
       subject 10
                to an on-sile
                      on·site review or anan off-site/desk
                                              off-sHefdesk review 50
                                                                  so resources are
                                                                               are directed to higher risk
    subgrantees,   programs, or types
    subgrentees, programs,         types of
                                         of transactions,
                                            transactions.

    FindIng
    Finding 6: Red
               Red Cross
                    Cr oss ooff Greater Grand Rapi ds Over-Reported
                                              Rapids  Over-Reportod In-Kind
                                                                    tn-Kind Contributions
                                                                            Conlributions on
    the
    the PeriodIc
        Periodic Expense
                 Expense Report

    Agree.
    Agree. The
            The Commission
                 Commission will encourage thethe subgranlee
                                                  subgrantee to maintain reconciliation
    documentation   with its
    doculTl9fltaUon with Its copy of
                                  of the
                                     the Federal Financial Report
                                                           Report for
                                                                  lor audit
                                                                      audit purposes.
                                                                            pUfJ)OS8S,

    Finding
    Finding 7;
            7: Michigan
               MIChigan State University
                              Unlverslly Miscalculated
                                         MI.calculaled Matching Costs
                                                                Costs

    Agree.
    Agree, Michigan
           Michigan Slate
                       Slate University believes this
                                                  Ihis to be
                                                          be an isolated,
                                                                  Isolated, clerical
                                                                            clerical error      nave
                                                                                     error and have
    reminded staff
             slall of the
                      the travel
                           travet allocation
                                  allocation percentages
                                             percentages for
                                                           for this
                                                               this program.

    Finding
    Finding 8:
            B: Commission
               Commission Miscalculated Member living
                                               Living Allowances
                                                      Allowances

    Disagree
    Disagree in
             In part,
                part.



                                                                                                               



                                                     43
    The Commission does not calculale member living allowances, certify member timesheets,
                                                                                         timesheels, or
    Issue the W-2 forms. Member !lvlngliving allowances are processed by the subgrantees,
                                                                                 subgranlees, Umesheets
                                                                                              timesheels
    are signed by the member's supervisor at    a.t Ihe
                                                    the subgrantee
                                                        subgrar1tee level, and Ihe
                                                                               the subgrantee
                                                                                   subgranlee has
    responsibi lity for Issuing
    responsibility      issuing W-2 forms to its members.
                                                  members.

                slates there are no reviews of payroll records and supporting documentation (such
    The finding states
    as the living Allowance Payment Schedule, timesheets
                                                 tlmesheets and W-2
                                                                 W -2 forms) prior to certifying the
    documents. The Commission does not believe it is practical to require the subgranlees
                                                                                subgrantees 10 to
    reconcile the Living Allowance Payment ScI1edule
                                             Schedule to the W-2 forms prior to payroll certification
    given they are issued only once per year.

    The Commission will encourage the subgrantees 10
                                                   to periodically evaluate the living allowance
    paid with the Living Allowance Payment Schedule to ensure the amount paid to the member is
    within the maximum.

    Finding 9;
            9: Commission Incurred
                          Inc urred Unallowable Cost
                                                Costss

    Disagree.
    DisEigree.

    This award has no match requirement. The Commission determined the costs were applicable
    to a VISTA award Incurred
                        incurred by another office in Ihe
                                                      the department. The amount picked up was
    State
    Slate general funds, not Federal funds.
                                      funds , There was no cost to the grant andror         malch as
                                                                             and/or loss of match
    a result of this reporting.
                     reportillg.

    The Commission pertormed
                      performed a reconciliation between its transaction level accounting records
    and the costs reported on the Federal Financial Report which Identified the error of $13,199 on
    Ihe                               Financial Report submission. A change in Ihe
    the September 30, 2011, Federal Flnancia!                                     the reporting
    process resulted in a duplicate entry and caused costs to be overstated by that amount. The
    duplicate entry had already been identified by Ihe
                                                   the Department's Accounting Bureau prior to this
                 reversing entry was reflected on the Federal Financial Report submitted to the
    review. The reVersing
    Corporation for the period ended March 31,2012.

    Find ing 10: American
    Finding      Am eri can Red Cross Acc
                                      Accounting
                                          oun t ing Datail
                                                    Detail Does Not ReconCile
                                                                    Reconcile to the
                                                                                 th e Federal
    Financi al Report
    Financial

    Disagree. American Red Cross reviewed documentation for the finding and noted that
    AmeriCorps program director compensation was recorded in OnCorps reports but was not
    reflected in
              ir1 the general ledger for the program. Costs reported on the Federal Financial Report
    were supported.
          supported.

    The Commission will encourage the subgrantee to maintain reconciliation documentation with
    its copy of the Federal Financial Report for audit purposes.
    Its

    Finding 11: American Re
                         Redd Cross Incurred
                                    Incu rred Unsupported
                                              Unsupporte d and Unallowabla
                                                               Unallowable Travel Costs

    Disagree. The finding states the subgrantee does not enforce its policy requiring the
    submission of receipts to support claimed travel expenses. The subgrantee's travel policy did
    not requi
        require
              re receipts for under $35.
                                    $35. The travel expense voucher Is
                                                                    is Ihe
                                                                       the documentation fo
                                                                                          forr Ihe
                                                                                               the
    transaction.

    The Commission followed-up with the subgrantee who stated It
                                                              it will be distributing revised Iravel
                                                                                              travel
    policy to lis
              its staff.
                  slaff.




                                                                                                            

 



                                                    44
    Finding 12: Michigan State University Inappropriately Approved Time Sheets

    Disagree. See the response to Finding 1.
    Disagree,

    Flndln'g 13: Commission Claimed Unsupported Costs
    Findln'g

    Agree. Internal controls have been reViewed
                                       reviewed and revi6ed
                                                    revised procedures have been Implemented
                                                                                 implemented
                \he risk,
    to mitigate the risk.

    Find ing 14: Commission Claimed Unallowable Cotts
    Finding                                     Costs

    Disagree. The charges were nol
    Disagree,                     not pre-award costs. The Commission receIved
                                                                            received pormls81on
                                                                                      permission to
                grant perlod
    extend the granl  period beyond the orlginal
                                        original grant ending
                                                       ondlng date. The expenses were incorrectly
             to a new grant but were transferred 10
    charged 10                                    to the correct grant prior to the reporting period and
    end date of the old granl.
                        grant. Funds were drawn and reported In the COfrect
                                                                        CO(tect grant period.

            15: Lack of Adequate Procedures for Conducting Criminal Background Checks
    Finding 16:
    and Searches of the Nallonal
                        National Public
                                 PubliC Sex Offender Registry

    Agree In
          in part.

    Drug Free Workplace Act
     The report 6tales  files were tested for compliance
                 states flies                 oompnance with the Drug
                                                                    Drug: Free Workplace
                                                                               Wor1tplace Act
                                                                                            AcI and
                                                                                                ood d ied
                                                                                                    cited
     a subgrantee for failure to complete a drug test prior to elVDllmenl.
                                                                enrollment. The Drug Free Workplace
                                                                                              WOI1<place
     does not apply to a subgranlee
                           subgrantee nor does the Act reQuire
                                                         require a drug lesl           employment or
                                                                         test prior to employment
     enroUment.
     enrollmenl In addition,       subgrantee's Internal
                     addition, the SlIbgrantee's internal procedures
                                                          procedUres do nol
                                                                          not require a drug test
                                                                                              lest prior to
     enro llment. The subgrantee does Inform
     enrollment.                          inform members Ihat
                                                            that they may be subject
                                                                               subjeet to random drug
     lesting.
     testing.

    Criminal BacI(ground
             Background Checks and National Public Sex Offender Registry Checks
     The Commission requires
                       reQuires the subgrantees to retain documentation of the required
     bacl(ground checks for audit purposes. The Commission now reviews all member files as
     background                                                                            pari
                                                                                        as part
     of the on-site
            on-slte monitoring to ensure compliance with
                                                    wi th the background checks.

    Finding
    FindIng 16: Lack of Sufficient
                        SuffIcient End·of·Term
                                   End-of·Term Documentation

    Agree with
             with the finding for
                               for six of the
                                           Ihe seven cases cited.
                                                             clled, Subgrantoes
                                                                     Subgrantees encounter difficulties
                       end' of-tefm reviews with those members who leave the AmeriCorps program
    conducting the end-at-term
    early.      splle of the efforts of the program directors
    early In spite                                     dlreclors to
                                                                 to re ach the departed members, end-of-
                                                                    reaoh                            end-of-
    term reviews may not be completed Itt          thus situations. ThIs
                                                in Ihese                   was true for six of the
                                                                      This was                 Ihe seven cited
    in th
    In thee review of 100 member files.files. The seventh case
                                                            case was a member who  who exited
                                                                                        exiled with an award
                                                                                                        awerd
    from Faith
           FaIth in
                 In Youth. An endend of term review was conducted
                                                            conducled andand submitted with
                                                                                        wlth the
                                                                                              Ihe original
                                                                                                  origInal
    submission for Faith in Youth.
                                Youth.

    To address the issue
                      Issue with
                            with members who leave
                                              \cave the
                                                    the program
                                                        program early,  the Commission req
                                                                 early, the                   uires the
                                                                                          requires   the
    subgranlees                   performance evaluation of the member
    subgrantees to document aa performance                      member andand Include
                                                                              include the
                                                                                      the. efforts to
                                                                                                   to
    rea ch out
    reach  out to
               to the
                  the member.

    Finding 17: Living
    Flndlttg17: Living Allowances
                       Allowances Based on Hours Served
                                                 Served

    Agree   In part.
    Agllle in  part. The
                      The CommiSSion
                          Commission recognizes
                                       recognizes thaithat In
                                                           In some
                                                              .ome cases
                                                                     cases the
                                                                             the subgrantee's
                                                                                 subgrantee's payroll
                                                                                                payroll system
                                                                                                        system
    wi11
    will not
         not process
             process payments except whenwhen there
                                                 there are
                                                        are hours
                                                             hours associated    with the
                                                                    8s.socialed with  the transaction.
                                                                                          transaction, In
    these
    these cases, thetho subgranlees find itIt necessary
                        subgrantees fjnd      necessaty to
                                                         to process the
                                                                      the living
                                                                          Uvlng allowance
                                                                                  allowance using
                                                                                             using hours
                                                                                                   hours soso
    the
    the member
         member can            the amount
                   can receive the amount owed      10 them and
                                               owed to        8nd the
                                                                   the appropriate
                                                                       appropriale withholdings
                                                                                      withholdlngs are
                                                                                                   are made.



                                                                                                                  

 



                                                      45
    It is nollhe
          not the subgrantees
                  subgranlees inlenllo
                              intent 10 be noncompliant, but without
                                                             withoul a payroll system
                                                                               syslem change or
    added administrative
            adminislrative processes, il provides a means 10
                                                           to ensure the member receives the living
    allowance.

        findIng states Ihere
    The finding        there Is
                             is noncompliance because subgrantee
                                                         subgranlee policy
                                                                    polIcy stales
                                                                           states that suspended
    members may nolnot receive a living allowance.
                                        allowance. The Freq uently Asked Questions
                                                                          QuestIons on Ihe
                                                                                         the
    Corporation's websile
                  webslle slales,
                           states, Members who ereare suspended may       recewe 8 living allowance.
                                                                mny not receive

    The Commission will encourage Ihe
                                    the subgrantees to periodically evaluate Ihe
                                                                             the living allowance
    paid with
         wilh the living Allowance Payment
                                   Paymenl Schedule to ensure the amount paid to the member Is   is
    within the maximum.

    Finding
    Findi ng 18: Discrepancies In
                               in Member Roster Com
                                                Comparison
                                                    parison

    Agree in part.
             part.

         1. As noted for finding 1, each subgrantee is required to reconcile Ihe
                                                                             the member service
            hours in OnCorps 10to eGrants
                                  eGranls as part of the grant
                                                         granl closeout process. The subgrantee
            must compare each member and highlight discrepancies on both reports. The
                        must resolve discrepancies. The subgrantees submit the OnCorps Report
            subgrantee mllst
                eGranls reports to the CommissIon
            and eGrants                 Commission as part of the closeout package.

                      needed. As noted, corrections were made during the time of the review.
         2. No action needed,                                                        review.

         3. The Commission allows program directors to create dummy accounts in OnCorps
            Reporting for Ihe
                          the purpose of training members and supervisors.
                                                                  supervisors. The dummy accounts
            are not deleted but are designated as Inactive
                                                    inactive In
                                                             in accordance with instructions received
            from the onCorps development team.
                                             team .

                          the two members recorded In
         4. The status of Ihe                      in eGrants but did not appear In
                                                                                 in OnCorps
            Reports are as follows:

                One member was enrolled and exited from the AmeriCorps portal (eGrants).

               One member enrollment had been escalated to the Corporation program officer prior
                  this review. The member was not enrolled in eGranls
               to thIs                                          eGrants because the system was
                                 available for enrollment. This cannot be remedied by the
               not making a slot avallab!e
               Commission and is awaiting resolution by the Corporation.


    If you have any questions, please contact Cindy Osga, CFGM, at 517·335-4087 or at
    osgac@michigan.gov.
    osgac@michlgan.gov,

                                         Sincerely,
                                         Sincerely,

                                         ~,-vJ<O~,J
                                         h~o~i,J
                                         Maura D. Corrigan
                                         Mavra                        0
    c:   Paula Kaiser VanDam
         Garry Gross
         Josh Larsen
         Cindy Osga




                                                                                                         

 



                                                      46
                     APPENDIX B
______________________________________________________________
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’s
              RESPONSE TO THE DRAFT REPORT
                               NATIONAL&:
                               COMMUNITY
                               SERVICEtu't
                               SERVICEttt't
Tn:
To:

From
I-rom :

Ce:           David          Chief Financial
                             Chief
                             General
              Valerie Grecn, Gene ral Counsel
              William BasI, Director, AmeriCorps·Statc
                                      Ameri Corps·State and National

Date:         August 2, 2012

Subject:      Response to OIG Draft Report on Agreed-Upon Procedures for the Michigan
              Community Service Commission


Thank you for the opportunity to review the OIG
                                             DIG draft report
                                                       repon on Agreed-Upon Procedures for the
Michigan Community Service Commission (the Commission). We will           work with the
                                                                    wi ll work
Commission to develop corrective actions. We will respond to all findi ngs and
recommendations in our management decision
                                      decis ion when the audit working papers are
                                                                               arc provided and
the final
    fi nal audi t is issued.




                                               47
 




    48
